VISA PLATINUM/VISA CLASSIC
F1
APPLICATION AND SOLICITATION DISCLOSURE
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

8.90%
F2
Visa Classic

16.90%
F3
APR for Balance Transfers

APR for Cash Advances

Penalty APR and When it Applies

Visa Platinum
8.90%
F4
Visa Classic
16.90%
F5
Visa Platinum
8.90%
F6
Visa Classic
16.90%
F7
Visa Platinum
16.90%
F8
Visa Classic
None
F9
This APR may be applied to your account if you:
- Make a late payment

How to Avoid Paying Interest on Purchases
For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

How Long Will the Penalty APR Apply? If your APRs are increased
for this reason, the Penalty APR will apply until you make six
consecutive minimum payments when due.
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

1.00%
F10
0.80%
F11

of each multiple currency transaction in U.S. dollars
of each single currency transaction in U.S. dollars

Up to $25.00
F12
Up to $25.00
F13
Up to $25.00
F14

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
Application of Penalty APR: Your APR may be increased to the disclosed Penalty APR if you are 90 days late in making
a payment.

©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

00103091-MXC40-P-1-040616 (MXC403 CCM003)-e

SEE NEXT PAGE for more important information about your account.

Effective Date:
The information about the costs of the card described in this application is accurate as of October
F15
.
1, 2015
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
OTHER DISCLOSURES
Late Payment Fee
Over-the-Credit Limit Fee
Returned Payment Fee
Document Copy Fee
Rush Fee
Emergency Card Replacement Fee
Card Recovery Fee
Pay-by-Phone Fee

F16
or the amount of the required minimum payment, whichever is
$25.00
less, if you are one or more days late in making a payment.
F17
or the amount of the transaction exceeding your credit limit,
$25.00
whichever is less.
F18
or the amount of the required minimum payment, whichever is
$25.00
less.
F19
$12.00
F20
$35.00
F21
$50.00
F22
$65.00
F23
$7.50

00103091-MXC40-P-1-040616 (MXC403 CCM003)-e

